<html>
<title> - 2006 DOD COUNTERNARCOTICS BUDGET: DOES IT DELIVER THE NECESSARY SUPPORT?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





    2006 DOD COUNTERNARCOTICS BUDGET: DOES IT DELIVER THE NECESSARY 
                                SUPPORT?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2005

                               __________

                           Serial No. 109-95

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 _____

                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2005 
24-844 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 10, 2005.....................................     1
Statement of:
    Long, Marybeth, Deputy Assistant Secretary, Special 
      Operations and Low Intensity Conflict, Department of 
      Defense; Colonel John D. Nelson, Director of Plans, Joint 
      Task Force North, U.S. Northern Command; Captain Edmund 
      Turner, Deputy Director for Operations, U.S. Southern 
      Command; Captain Jim Stahlman, Assistant Operations 
      Officer, U.S. Central Command; and Lennard Wolfson, 
      Assistant Deputy Director, Office of Supply Reduction, 
      Office of National Drug Control Policy.....................    13
        Long, Marybeth...........................................    13
        Nelson, Colonel John D...................................    27
        Stahlman, Captain Jim....................................    35
        Turner, Captain Edmund...................................    34
        Wolfson, Lennard.........................................    44
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    10
    Long, Marybeth, Deputy Assistant Secretary, Special 
      Operations and Low Intensity Conflict, Department of 
      Defense, prepared statement of.............................    17
    Nelson, Colonel John D., Director of Plans, Joint Task Force 
      North, U.S. Northern Command, prepared statement of........    29
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Stahlman, Captain Jim, Assistant Operations Officer, U.S. 
      Central Command, prepared statement of.....................    37
    Wolfson, Lennard, Assistant Deputy Director, Office of Supply 
      Reduction, Office of National Drug Control Policy, prepared 
      statement of...............................................    46

 
    2006 DOD COUNTERNARCOTICS BUDGET: DOES IT DELIVER THE NECESSARY 
                                SUPPORT?

                              ----------                              


                         TUESDAY, MAY 10, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room 2247, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the committee) presiding.
    Present: Representatives Souder, Cummings, Ruppersberger, 
and Norton.
    Staff present: Marc Wheat, staff director and chief 
counsel; David Thomasson and Pat DeQuattro, congressional 
fellows; Malia Holst, clerk; Tony Haywood, minority counsel; 
and Teresa Coufal, minority assistant clerk.
    Mr. Souder. Good afternoon. The subcommittee will come to 
order. I want to thank you all for coming to this very 
important hearing that continues our series of hearings 
reviewing the President's National Drug Control Budget and 
Strategy for 2006. Today we focus on the counterdrug 
responsibilities of the Department of Defense.
    Due to the jurisdictional responsibility of this 
subcommittee, we pay very close attention to the drug supply 
and interdiction initiatives contained within the President's 
National Drug Control Strategy and Budget. Our oversight 
activities evaluate departmental authorizations, 
appropriations, a well as the efficiency and effectiveness of 
the departmental efforts.
    The President's budget request for 2006, now before 
Congress, asks for approximately $12\1/2\ billion for 
counterdrug initiatives. The President's Drug Strategy has 
requested that nearly $900 million be appropriated to the 
Department of Defense through its Office of Special Operations 
and Low Intensity Conflict.
    This budget request does not include the wartime 
supplemental requests that will fund the efforts in Afghanistan 
and Iraq in 2006. For fiscal year 2005, the Department of 
Defense received an additional $315 million in supplemental 
funds for counternarcotics efforts in Afghanistan. However, it 
is too early to speculate what additional counterdrug funding 
requests will be presented to Congress in fiscal year 2006 for 
the Defense Department's commitments to support the war on 
drugs.
    The subcommittee remains committed to the efforts of the 
U.S. governmental agencies that combat the devastating effects 
of illegal drug usage within this country. According to the 
Center for Disease Control's preliminary estimates for 2003, 
over 25,000 Americans died of drug-related causes.
    To put this in perspective, we have never lost this many 
Americans annually to a post-World War II military or terrorist 
campaign. This staggering statistic is significant when we 
consider that we have lost over 1,500 brave Americans in Iraq 
since Operation Iraqi Freedom began, accounting for less than 3 
percent of those lost to drugs over the same time period. We 
have lost more Americans to drugs than were killed in all the 
terrorist acts to date. Therefore, it is vitally important that 
we maintain vigorous efforts to control the sources of supply 
for narcotics and to interdict them before reaching the United 
States.
    The explosion of heroin production and trafficking in 
Afghanistan has caused some to believe that the Defense 
Department's counterdrug efforts in that country to have been 
too little and too late. As the President's Drug Strategy 
Report notes, ``If all of Afghanistan's opium were converted to 
heroin, the result would be 582 metric tons of heroin. By 
comparison, Colombia and Mexico combined produced roughly 22 
metric tons of pure heroin in 2003, more than enough to satisfy 
U.S. consumption.''
    In 2004, United Nations opium poppy survey reflected that 
Afghanistan produced over 80 percent of the world's heroin. If 
the situation in Afghanistan is not reversed, the destabilizing 
effects of the drug trade there could reverse all of our gains 
in that country since 2001. It takes little imagination to 
understand that a thriving drug trade in Afghanistan is 
financing narco-terrorist forces, able to threaten the 
government in Afghanistan and threaten the region. Here in the 
target market for illegal drugs, we may also see a rise in the 
number of heroin-related deaths, and even more deaths among 
European nations.
    What the subcommittee hopes to learn today, in order to 
reverse the deadly trends we are already seeing in Afghanistan, 
whether DOD needs to refocus its priorities on the destruction 
of stockpiled drugs and drug processing facilities, support 
aerial and drug eradication of opium, and interdict precursor 
chemicals necessary for drug production. These efforts are 
essential for Afghanistan to be firmly set on the road to 
democracy and away from corruption, tyranny, and terrorism.
    While the subcommittee believes that DOD has needed to step 
up its counterdrug efforts in Afghanistan, we have equally 
significant concerns about DOD's continuing commitment to its 
responsibilities in the Western Hemisphere. In November 1989, 
Congress passed the DOD Authorization Act of 1990, in which 
Congress directed the Department of Defense to serve as the 
single lead Federal agency for detection and monitoring of 
aerial and maritime transit of illegal drugs into the United 
States, in support of the counterdrug activities of the 
Federal, State, local, and foreign law enforcement agencies. 
DOD accomplishes this task by providing airborne and ground 
based detection in areas of known drug smuggling activities.
    However, DOD's level of effort to fulfill this 
responsibility is evidenced by the sharp reduction in aerial 
support to the Source and Transit Zones. According to records 
maintained by the Joint Interagency Task Force South, maritime 
patrol hours have dropped drastically due to the U.S. Navy's 
reduction of authorized P-3 flight hours in the Transit Zone. 
For example, Transit Zone naval maritime patrol aircraft hours 
decreased from 5,964 hours in 2002 to 4,634 hours in 2003 to 
only 1,741 hours in 2004, a drop of 71 percent in the Transit 
Zone in only 2 years.
    In the Source Zone, the Navy's signal-intelligence capable 
P-3's provided only 403 hours in 2004, a drop of 35 percent 
from 2001 levels, while the U.S. Air Force E-3 AWACS flew a 
total of 81 hours for all of calendar year 2004. If we were to 
rely just on the U.S. Navy and Air Force assets in the Source 
Zone, we would have had planes in the air less than 9 percent 
of the time last year.
    The continual degradation of the Tethered Aerostat Radar 
System [TARS] is a further example of concern with respect to 
DOD's counterdrug commitment in the Western Hemisphere. The 
U.S. Air Force, which took over control of TARS from the U.S. 
Customs Service in 2000, has reduced the number of TARS radar 
sites from 14 to 8. This has left the United States nearly 
blind to air and marine smuggling activities along the entire 
Gulf Coast, stretching from the east coast of Texas to the 
southern tip of Florida, and from the eastern coast of Florida 
to Puerto Rico.
    I personally inspected this dangerous lack of coverage in 
the Gulf of Mexico when we visited Custom and Border 
Protection's Air and Marine Operations Center in March of this 
year. The lack of any radar feed for the entire Gulf area 
highlighted just how vulnerable we are to air and marine 
intruders transiting the region into the United States.
    In 1989, when Congress authorized DOD to support Federal, 
State, local, and foreign law enforcement agencies, the 
Interagency counterdrug assets and programs were not yet 
capable of primary detection and monitoring duties. However, 
the world has changed since then. The most obvious change 
happened in 2004 when Congress created the Department of 
Homeland Security.
    Within the Department of Homeland Security, the Customs and 
Border Protection houses the combined air and marine assets of 
the legacy Customs Service and the U.S. Border Patrol. 
Similarly, the U.S. Coast Guard has a full inventory of vessels 
and aircraft capable of armed takedowns of vessels carrying 
contraband. Less obvious is the maturation of the counterdrug 
capabilities within the Department of Homeland Security. Even 
though the Department of Homeland Security operates aged 
aircraft and vessels, they account for the majority of the 
aerial and marine patrols responsible for the majority of 
seizures in the Source and Transit Zones.
    The subcommittee recently was made aware of the DOD-drafted 
amendments to the fiscal year 2006 DOD authorization bill that 
were prepared for the White House Office of Management and 
Budget and they are very troubling. One amendment would 
effectively place DOD as the lead agency for detection and 
monitoring of aerial and marine transit of illegal drugs 
outside of the Western Hemisphere.
    We have already seen how DOD support in the Western 
Hemisphere has declined over years. A second amendment would 
allow ``Funds available to the Department of Defense for drug 
interdiction and counterdrug activities may be used by the 
Secretary of Defense for detecting, monitoring, interdicting 
terrorists, and other transnational threats.'' This language 
would allow DOD to take funding Congress set aside for DOD's 
counterdrug responsibilities and use those funds for missions 
that may be wholly unrelated to its counternarcotics 
commitments.
    The drug interdiction capabilities within the Department of 
Homeland Security and the Department of Justice compels 
Congress to reevaluate the counterdrug roles and 
responsibilities of U.S. Government agencies. The fundamental 
questions the subcommittee needs to ask this panel are: One, 
has the appropriated DOD counterdrug efforts yielded tangible 
results in our efforts to stop the increase of poppy 
cultivation in Afghanistan? Two, have the current commitments 
of DOD to engage in two separate conflicts hampered their 
ability to support the Nation's counterdrug efforts in this 
hemisphere? Three, do DOD counterdrug assets and capabilities 
provide services unique only to military requiring larger 
operating costs? Four, have we appropriately designed a Joint 
Interagency structure that promotes DOD supporting law 
enforcement efforts? Five, is it still appropriate for DOD to 
be the lead Federal agency for detection and monitoring of drug 
shipments in the transit zone, or should this responsibility 
and funding be instead transferred to the Department of 
Homeland Security?
    Today we have a panel of very experienced witnesses to 
answer these and other questions posed by the subcommittee. 
From the Office of the Secretary of Defense we have the 
principal operator of DOD's counterdrug budget, Ms. Marybeth 
Long, Deputy Assistant Secretary of Defense for Special 
Operations and Low Intensity Conflict. From USNORTHCOM we have 
Colonel John Nelson. From USCENTCOM we have Deputy Director of 
Operations. From USSOUTHCOM we have the Deputy Director Captain 
Ed Turner. From the Office of National Drug Control Policy we 
have Mr. Lennard Wolfson, Assistant Deputy Director of the 
Office of Supply Reduction.
    We thank all of you for coming and appreciate that very 
much.
    It was Captain Stahlman from CENTCOM. Thank you.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Souder. I would now like to yield to Mr. Cummings for 
an opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. Thank you 
for holding today's important hearing on the President's fiscal 
year 2006 budget request for counternarcotics programs within 
the Department of Defense.
    Our Nation's military plays a vital role in many aspects of 
our Nation's drug control strategy.
    In the area of supply reduction, the military provides 
essential support for interdiction and eradication efforts both 
internationally and domestically.
    Much of the funding the Defense Department receives for 
counterdrug activities supports interdiction efforts aimed at 
keeping illicit drugs produced in Colombia and other Andean 
region nations from reaching the United States. Nearly all of 
the cocaine consumed in the United States and most of the 
heroin consumed on the East Coast originates in Colombia. 
Throughout the transit zone and at our borders, the military 
provides critical support to Federal, State, and local law 
enforcement to help identify and stop drug traffickers, as well 
as possible terrorist threats.
    Since the toppling of the Taliban regime in response to the 
9/11 attacks, Afghanistan has become a major focus of U.S. 
interdiction and eradication efforts. Income derived from the 
illicit Afghan opium trade supported the Taliban and al Qaeda 
prior to 9/11. Today, narcoterrorism, fueled by the Afghan 
opium trade, represents the single greatest threat to the 
stability and the longevity of Afghanistan's fledgling 
democracy. The military support of interdiction and eradication 
missions within Afghanistan and throughout Central Asia are key 
to our efforts to counteract the recent explosion in Afghan 
opium cultivation and production.
    The military supports similar missions in every part of the 
world where drugs and narcoterrorism pose significant threats. 
But funding for Defense Department counterdrug activities also 
supports essential demand reduction programs to reduce drug use 
within the military and military communities, in addition to 
providing vital tactical, technical, and material support to 
domestic law enforcement and community prevention programs.
    The President's fiscal year 2006 budget request proposes to 
devote $896 million to counterdrug efforts within the 
Department of Defense. These efforts are centrally coordinated 
by the Office of Counternarcotics, with oversight from the 
Office of Special Operations and Low Intensity Conflict.
    Apart from examining the adequacy of the President's 
proposed funding for DOD counterdrug programs, this hearing 
will address questions about the effectiveness of the 
Pentagon's counterdrug efforts and the extent to which the 
military recognizes and treats counternarcotics as a high-
priority mission. Key questions include: Are resources being 
diverted from counterdrug efforts in the transit zone, 
resulting in reduced surveillance of drug trafficking targets 
bound for the United States?
    Should the military assume a larger, more direct role in 
interdicting and eradicating opium in Afghanistan, or would 
this alienate the Afghan public and compromise counterterrorism 
missions that depend upon Afghan intelligence and cooperation?
    Is there tension between the counterterrorism and 
counternarcotics missions or are they truly complementary?
    How do we measure the effectiveness of these programs in 
the context of a National Drug Control Strategy that states as 
its ``singular goal'' reducing drug use in the United States?
    As you know, Mr. Chairman, I have expressed deep concerns 
about the shift of emphasis within the President's overall drug 
budget request.
    The President has proposed deep cuts for demand reduction 
programs and programs that support drug enforcement at the 
State and local level. Safe and Drug-Free Schools and the High 
Intensity Drug Trafficking Areas program are glaring examples. 
Even within the President's request for the Department of 
Defense, this trend appears, as the National Guard's Drug 
Demand Reduction program is slated for a sharp cut.
    Meanwhile, the President proposes substantial increases for 
international supply reduction efforts that, despite yielding 
record seizures and eradication estimates, have demonstrated no 
impact on the availability or price of drugs in the United 
States.
    Mr. Chairman, the President's 2005 National Drug Control 
Strategy emphasizes ``balance'' and states that program 
effectiveness will be the basis for drug budget funding 
decisions. Unfortunately, testimony from our previous hearings 
on the President's drug budget have cast doubt on the 
credibility of both of these themes in the strategy.
    Today's hearing offers an opportunity to examine another 
important area of the Federal drug control budget and I thank 
you for your close attention to this subject.
    Finally, let me say this. Whatever our views on the 
President's budget and the direction of the National Drug 
Control Strategy, we deeply appreciate the efforts and the 
sacrifice of the men and women of the U.S. armed forces. We are 
grateful for their devotion to the many missions they perform 
to keep America and its people safe.
    With that, Mr. Chairman, I look forward to the testimony of 
our witnesses and I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. A lot has been said. I think basically 
the bigger picture is that we know we are at war, No. 1, and we 
need to support the war fighter. We also are at war with 
terrorism, and that is another issue that we are dealing with. 
But if you look at the statistics, I think you will find that 
drugs probably are our worst enemy in the world. For example, 
in the United States of America, more violent crime, about 85 
percent of all violent crime that is committed is drug related.
    Now, the majority of these drugs come other parts of the 
world, and we need to refocus and we need the team effort that 
we have in Iraq and Afghanistan that we know is working well. 
And I am not just talking about the military. The NSA, CIA; the 
whole team effort. I think we need to refocus on that teamwork 
approach.
    Right now, I think the evidence shows the majority of the 
drugs that come to this country come through Mexico. I believe 
that is the U.S. Northern Command's jurisdiction. Now, if we 
could put the same emphasis on Mexico with that teamwork 
approach that we do in Iraq and Afghanistan, our country would 
be a lot better off. We have not focused in that regard, and it 
is important that we continue to refocus our priorities and 
where our money is going to go.
    My final concern is the issue of the narco-terrorist. The 
bad guys say in Mexico--and I am focusing on Mexico now, 
Northern Command--are the ones that are getting the people 
across our borders illegally are the ones that are dealing with 
the drugs. They are, I am sure, the same people that an al 
Qaeda will go to in order to get the people that we don't want 
in our country, the cells that concern us for our national 
security, and we haven't put enough emphasis in that regard.
    Now, unfortunately, I have another hearing on national 
security downstairs, but I would hope that this issue could be 
addressed, the focus of a team approach--the DOD, which 
includes, NSA, CIA, the military--and hope that we could 
refocus our efforts as it relates to drugs with respect to 
Mexico. We know a lot of the drugs come from Colombia and other 
parts of South America, but they are coming through in Mexico, 
and we have not done the job that we need to do.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you very much. We appreciate each of you 
coming. As each of us have said, we appreciate the 
contributions of the military, and we know we are multitasking 
everybody, and we can feel it in our own districts.
    The question is that to be able to do all these tasks, we 
need to know what in fact we are doing and which things are 
being shorted. And if things are being shorted, then we need to 
be told, as Congress, look, this is what we are being shorted 
and we either need to spend the money or acknowledge we are 
shorting them. We don't expect people to do three things 
simultaneously without adequate funding, and that is really 
part of what we are trying to figure out and how to prioritize 
in our budgets and why we are having the budget hearings.
    We are going to start with Marybeth Long.
    First, I need to swear everybody in. I forgot that. Let me 
do that first.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each witness responded 
in the affirmative.
    I also ask unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the hearing record, and that any answers to written questions 
provided by the witnesses also be included in the record. 
Without objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members may be included in 
the hearing record, and that all Members may be permitted to 
revise and extend their remarks. Without objection, it is so 
ordered.
    We are going to start with Marybeth Long, Deputy Assistant 
Secretary of Special Operations and Low Intensity Conflict for 
the Department of Defense. Thank you very much for joining us.

   STATEMENTS OF MARYBETH LONG, DEPUTY ASSISTANT SECRETARY, 
 SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT, DEPARTMENT OF 
DEFENSE; COLONEL JOHN D. NELSON, DIRECTOR OF PLANS, JOINT TASK 
  FORCE NORTH, U.S. NORTHERN COMMAND; CAPTAIN EDMUND TURNER, 
DEPUTY DIRECTOR FOR OPERATIONS, U.S. SOUTHERN COMMAND; CAPTAIN 
   JIM STAHLMAN, ASSISTANT OPERATIONS OFFICER, U.S. CENTRAL 
COMMAND; AND LENNARD WOLFSON, ASSISTANT DEPUTY DIRECTOR, OFFICE 
  OF SUPPLY REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY

                   STATEMENT OF MARYBETH LONG

    Ms. Long. Thank you very much, Chairman Souder, 
Representative Cummings, Representative Ruppersberger. I want 
to thank you first on behalf of the Department of Defense for 
the opportunity to come here today to discuss our 
counternarcotics programs and activities for fiscal year 2006. 
The leadership and, in fact, the valued support that your 
committee and subcommittee give us, quite frankly, are critical 
to us being able to maintain not only what we are doing, but 
what we hope to do in the future as part of our counterdrug 
efforts. And specifically, Mr. Chairman, I know that you are in 
particular dedicated to this cause, and we thank you.
    As you know, the Department spends a tremendous amount of 
resources on its counterdrug programs and activities, and these 
fall into three general areas. The first is our obligation to 
reduce the amount of drugs that come into our country; second, 
we need to contribute to force readiness by our aggressive 
counternarcotics and drug testing programs within the military; 
and, third, we believe it is our obligation to assist other 
countries in developing their capacities and their resources to 
interdict the drugs in their countries so that they never reach 
our shores. In doing that, the Department, for fiscal year 
2006, has requested $895 million in order to continue these 
programs and activities.
    I am told that there are those who believe that the 
Department of Defense is either unwilling or unable to perform 
its counternarcotics obligations and responsibilities, and I am 
here to tell you today that those individuals are mistaken. I 
will give you five data points in which I will substantiate my 
assertion.
    First, last year, JIATF-South, the joint International 
Operation Center down in Key West, FL, which I believe many of 
you have visited, interdicted more cocaine than ever before, 
approximately 200 metric tons, which represents about a 43 
percent increase over the previous year. But I don't think the 
JIATF-South success should be measured solely in metric tons of 
cocaine, any more than I believe the Department's commitment to 
the counterdrug effort should be measured in the number of 
ships or planes that on any particular day are operating in 
that AOR.
    The Department has been consistent in its support to 
Colombia. It sends troops and Marines to Colombia to train and 
work with the Colombians in interdicting the drugs in that 
country. In addition, overwhelmingly the infrastructure, funds, 
and personnel at JIATF-South belong and are contributed by the 
Department of Defense.
    In fiscal year 2006, in fact, the Department of Defense, 
out of its internal budget, added $40 million, in a time of war 
in Afghanistan and Iraq, toward augmenting the fight in 
Colombia and providing our Colombian colleagues, who are doing 
so well there in the counternarcoterrorist fight.
    Likewise, although there are problems with the P-3 that all 
of you are aware of--and these are problems in the entire P-3 
community--the Department has been diligent in seeking other 
ways to fill the P-3 gap by using other resources for the MPA 
problem. And I am going to be deferring to Captain Edmund 
Turner to give you details on those gap fillers.
    And, finally, as you are aware, the National Guard last 
year, despite an incredible up tempo, supporting our forces in 
Iraq and Afghanistan, increased their aviation hours by over 
600 hours in support of domestic law enforcement.
    Turning just a moment to our domestic support. A total of 
about $200 million of our budget request will be for domestic 
support programs. As you are well aware, most of those programs 
are executed through JTF-North out of El Paso, TX, in 
conjunction with the National Guard. I recently had the 
opportunity to go to El Paso and meet with JTF-North and visit 
with the Guard, and I believe, Mr. Chairman, that you are 
correct that, in particular, the Guard's efforts toward demand 
reduction and their outreach toward schools and those who may 
be less fortunate and involved in drug programs at a very 
grassroots level are important.
    JTF also works closely with the Mexico. In particular, we 
provide literal training to the Mexican forces. In addition, 
our domestic programs include classified information systems to 
the HIDTA, which we think are integral to our support of State 
and local law enforcement.
    The southwest border is not the only place where drugs are 
crossing into our country. The northern border is another area 
of critical concern. JTF-North and the National Guard are both 
working with the Canadians in order to enhance our cooperation 
toward all smuggling events across that border.
    On the southwest border, as in our other borders, smugglers 
transport drugs, criminals, illegal aliens, arms, and cash. 
They take advantage and exploit the openness of our society and 
pose a threat to our way of life. Other countries suffer the 
same problem, and we are attempting to engage those countries, 
particularly Colombia and Afghanistan, in helping them 
interdict those smuggling events so that the drugs that are 
leaving their country never reach our borders.
    Our programs are focused on providing assistance to those 
democracies where the drug networks are or support threats to 
democratic institutions and free societies, such as Colombia, 
and in our request approximately $429 million will go toward 
these international counternarcotics programs worldwide.
    I gave you a brief outline of our SOUTHCOM efforts, with a 
focus on JIATF-South. As you know, SOUTHCOM does much more in 
its AOR, and I will again defer to Captain Turner to provide 
you with additional details on that.
    In the Central Command area of operations, you are correct 
that we have a huge explosion of poppy growth, and this has 
raised fears that not only is that heroin exploding for the 
normal consumers that are Russia and Europe, but that there is 
so much opium coming out of Afghanistan that at some point it 
will reach our shores. That is my fear.
    In addition, the moneys gained from the opium production 
out of Afghanistan I believe are directly contributing to 
insurgent terrorists and other efforts to subvert the democracy 
there and pose a direct threat to our coalition forces in 
Afghanistan. To that end, President Bush and President Karzai 
have made fighting drug trafficking a priority in Afghanistan, 
as have we.
    In fiscal year 2006, we will buildupon our efforts that 
were funded last year through the supplemental and assist the 
Afghans in building their capacity to address this threat. The 
Department will provide substantial counternarcoterrorism 
support to the infrastructure of the police, in particular, 
training and equipment, and logistic support to those 
facilities and teams that are supported by the United Kingdom, 
as lead country, as well as those that are being led currently 
by our sister law enforcement agency, EDEA.
    To date, the Department has been responsible for the only 
U.S. trained counternarcotic interdiction force in Afghanistan. 
The Department funded, financed, and actually provided the 
training of the National Interdiction Unit, which now is 
currently approximately 130 people in Afghanistan. That unit is 
being led successfully by the DEA, and I will defer to Captain 
Stahlman from CENTCOM to provide you with additional details on 
those efforts.
    Since July 2004, our coalition forces have reported at 
least 21 events in which they have come across drugs or drug 
paraphernalia in the course of their normal duties and disposed 
of those drugs. In addition, those do not count the times when 
our forces are encountering drugs in the company of provincial 
reconstruction teams [PRTs] when those drugs or individuals 
were turned over to local Afghan authorities.
    In short, the intelligence packages that are developed CFC-
Alpha, Combined Forces Command-Afghanistan, in conjunction with 
our CIA, DEA, and U.K. colleagues, have formed the foundation 
of the Interdiction Unit's successes to date, not only the 
National Interdiction Unit, which is working with the DEA, but 
the Special Narcotics Force led by the United Kingdom.
    One note in particular. Afghanistan is a complex and 
difficult situation, and, like the drug problem in the United 
States, it is absolutely critical that the Inter-Agency 
cooperate and integrate its efforts. The Department of Defense 
cannot succeed in Afghanistan if every other department 
likewise does not succeed. Our sister agencies--the State 
Department, the DEA, USAID providing alternative livelihoods, 
United Kingdom, and the Afghans themselves--are absolutely 
critical to our efforts there. Without the support of President 
Karzai, and without the alternative livelihood and economic 
resources that are to be made available to Afghans as an 
alternative to drug production, we will all fail.
    In the Pacific Command AOR, the Department will bolster 
well established counternarco efforts, particularly those in 
Southeast Asia, where the United States and Asian partners face 
challenging combinations of terrorism, narcotics trafficking 
extremism, and a serious need for increased maritime security. 
Currently, PACOM and JIATF-West--which, as you know, was moved 
last year from California to Honolulu--are focusing their 
operations on the more mature programs that we have operating 
out of Thailand, but are also developing new programs in 
nations of interest such as Malaysia, Indonesia, and the 
Philippines.
    In Europe and in the African AORs, the Department will 
increase its cooperation and information exchange with new and 
old allies in Europe to become more effective in these theaters 
of operation. We are also developing a Trans-Saharan initiative 
that is designed to train and equip the military, Coast Guard, 
and other partner nations interdiction in that area.
    Integral to our efforts are the intelligence and 
technological support that the budget that you provide us 
allows us to develop. A total of approximately $139 million of 
the moneys that we are requesting are for intelligence programs 
to collect, process, analyze, and disseminate information 
required for counternarcoterrorism operations. I believe, Mr. 
Chairman, you are aware of the Pulsed Fast Neutron Analysis 
that we have in Texas, which may very well be the first 
nonintrusive interdiction effort that may have applications for 
our sister customs and border agencies worldwide. Likewise, the 
Athena project is a revolutionary integration of maritime radar 
and other capabilities that we believe will be applicable to 
increase maritime security worldwide.
    Again, the basic nature of smuggling threat mandates the 
need for actionable intelligence, and the Department is working 
hard to develop and increase our capabilities in this area.
    In conclusion, on behalf of the Department, I appreciate 
your continued support of our counternarcotics programs, in 
particular your support for our Afghan and Colombian programs. 
If it were not for the support and for the leadership of this 
committee, we would not have made the advances that I believe 
we have made particularly in Colombia over the last years.
    I stand by and look forward to answering your questions.
    [The prepared statement of Ms. Long follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Souder. Thank you very much.
    Our second witness is Colonel John Nelson, Director of 
Plans, Joint Task Force North, U.S. Northern Command. Thank you 
for being with us.

              STATEMENT OF COLONEL JOHN D. NELSON

    Colonel Nelson. Thank you. Chairman Souder, Ranking Member 
Cummings, members of the subcommittee, thank you for this 
opportunity to testify regarding U.S. Northern Command's 
efforts to support civilian law enforcement agencies in the 
fight against drug trafficking and other transnational threats.
    Support to law enforcement is an important element in U.S. 
Northern Command's mission to deter, prevent, defeat, and 
mitigate threats to the homeland, because it has direct 
applicability to the global war on terror.
    Transnational threats include international terrorism, 
narcotics trafficking, proliferation of weapons of mass 
destruction, and organized crime. Terrorists are known to use 
drug trafficking conveyances, smuggling networks, and money 
laundering to achieve their goals and fund their activities. As 
U.S. Northern Command supports law enforcement agencies in the 
fight against drugs, we want to ensure that our efforts are 
focused on the nexus between terrorist organizations and drug 
trafficking.
    U.S. Northern Commands supports the global war on terror 
right here at home by providing military unique capabilities to 
support civilian law enforcement agencies. By doing this, we 
support not only the National Defense Strategy with terrorist 
interdiction support, but also the National Drug Control 
Strategy by simultaneous providing drug interdiction support.
    The lynchpin of U.S. Northern Command's counterdrug efforts 
is the support provided by Joint Task Force North. Established 
in 1989 as Joint Task Force-6, Joint Task Force North was 
transformed and redesignated in September 2004. The mission of 
JTF-North is to coordinate military support to law enforcement 
agencies and enhance interagency synchronization in order to 
deter and prevent threats from entering the homeland. Its area 
of operation runs from border to border and coast to coast, but 
focuses primarily on the approaches to the homeland.
    The support provided by JTF-North includes more than 50 
different missions that can be broadly grouped into three 
categories: intelligence support, operational support, and 
theater security cooperation.
    Intelligence support includes employing military 
intelligence analysts to develop operational intelligence 
products that can be used across the interagency for early 
cuing, warning, and interdiction operations. A supporting 
effort is training and collaboration between DOD and law 
enforcement intelligence analysts, consistent with intelligence 
oversight requirements, to ensure seamless coverage within the 
operating area.
    JTF-North has intelligence liaison personnel with the El 
Paso Intelligence Center, the Border Patrol Field Intelligence 
Center, and, most notably, at the U.S. Embassy in Mexico City. 
These intelligence professionals provide a real-time link 
between JTF-North and key centers of intelligence in North 
America in order to develop situational awareness for early 
cuing and warning.
    Operational support includes detection missions using a 
variety of sensors that are unique to DOD in order to improve a 
supported law enforcement agency's ability to detect, monitor, 
and interdict transnational threats. Construction of roads, 
brides, and fences, as well as installing area lighting to 
improve the ability of law enforcement officers to move, 
identify, and respond to threats crossing the border are also 
part of this mission category.
    The third JTF-North mission category, theater security 
cooperation, made significant progress with Mexico last year 
through the export of a maritime basic intelligence course to 
the Mexican Navy. This effort was in addition to JTF-North's 
continuing membership in the U.S.-Mexico Bilateral Interdiction 
Working Group.
    Our relationship with Canada is developing and strengthens 
with each collaborative engagement as part of our work with the 
Integrated Border Enforcement and Intelligence Teams. JTF-North 
also performs cooperative efforts with Canada through Project 
NORTHSTAR.
    U.S. Northern Command is particularly proud of its efforts 
in cooperation with Mexico. These include counterdrug personnel 
in the Office of Defense Coordination. Mobile Training Teams 
form a substantial element of our theater security cooperation 
efforts with fiscal year 2006 funding of approximately $2.4 
million requested. These teams assist the Mexican military with 
tasks such as maintenance, training, repairs on aircraft, night 
vision equipment, counterdrug sensor packages, and ex-Knox 
class frigates in order to improve their national capacity to 
defeat transnational threats before they attempt to enter our 
homeland.
    Another USNORTHCOM effort in conjunction with the National 
Guard Bureau is to support the Air and Maritime [sic] Operation 
Center through Air National Guard radar surveillance operators 
who provide detection and tracking data and forward to law 
enforcement agencies air tracks suspected of smuggling 
activities across U.S. borders.
    I would like to emphasize that in most U.S. Northern 
Command support activities, we are not the primary Federal 
agency. Our job is to support civilian law enforcement agencies 
based on the support requested. We believe that our 
relationship with our interagency partners are excellent and 
growing. An important element in these relationships is JTF-
North as U.S. Northern Command's agent for coordination with 
border-focused civilian agencies. With a 15-year track record 
of success, and expanded mission into an organization focused 
on all transnational threats, it is postured to take the next 
step with increased interagency collaboration to secure the 
Nation.
    Again, thank you for this opportunity to describe U.S. 
Northern Command's support activities with regard to 
interdicting terrorist and drug traffickers. We are proud of 
the efforts of our men and women in military uniform, our 
civilian employees, and our civilian law enforcement partners 
working together to protect our borders against drug 
trafficking and other transnational threats to our Nation.
    [The prepared statement of Colonel Nelson follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Souder. Thank you very much.
    Our third witness is Captain Edmund Turner, Deputy Director 
for Current Operations, U.S. Southern Command. Thank you very 
much for being here.

               STATEMENT OF CAPTAIN EDMUND TURNER

    Captain Turner. Good afternoon, Chairman Souder. Thank you 
for allowing me a few minutes to make some opening comments.
    We at U.S. Southern Command are fully committed to meeting 
DOD's responsibility in the fight against drugs and 
narcoterrorists. As specified in Title X, U.S. Code Section 
124, we fulfill our role in the National Counterdrug Strategy 
as lead in detection and monitoring. We accomplish this through 
close interagency coordination, by supporting law enforcement 
interdiction, and building long-lasting security capabilities 
in partner nations.
    Our programs cover the entire SOUTHCOM area responsibility, 
including Central and South America and the Caribbean Basin. 
Our principal command agent in the planning and execution of 
the detection and monitoring effort, as you know, is Joint 
Inter-Agency Task Force South, or JIATF-South. JIATF-South is a 
model organization for multiservice, multiagency, and 
multinational support to the counterdrug mission. Their 
operations in conjunction with USSOUTHCOM deliver an integrated 
approach to meeting DOD missions in the war against drugs and 
narcoterrorists.
    Successfully executing these counterdrug missions would not 
be possible without the fiscal resources you provide. 
USSOUTHCOM is planning on receiving a total of $350 million 
from DOD's central transfer account in fiscal year 2005 to fund 
our principal CD activities. In fiscal year 2006 we have 
requested about $368 million.
    As you are aware, in the transit zone of the Eastern 
Pacific, Central America, and Caribbean, we conduct daily 
interdiction major surge counterdrug operations. As for the 
source zone, we continue to promote military cooperation that 
focuses on improving partner nation capabilities. In addition 
to providing counterdrug training teams to vetted units in our 
partner nations, we provide a variety of assistance focused on 
operational, logistics, and communication self-sustainment.
    Colombia is the source of 90 percent of the cocaine and 
approximately 45 percent of the heroin entering the United 
States. For Colombia, the granting of expanded authorities was 
an important recognition that no meaningful distinction can be 
made between the terrorists and the drug traffickers in our 
region.
    In concert with U.S. Department of State and several 
agencies, we continue to provide a full range of support to the 
Colombian government, its security forces, and its people. This 
includes training and equipping of both military and police, as 
well as assisting the Ministry of Defense in the development of 
modern budget and logistics organizations.
    I would like to emphasize that all of our training, 
planning, and assistance programs operate under strict rules of 
engagement that prohibit U.S. service members from 
participating directly in combat operations in those countries. 
At times, measures of effectiveness are difficult to gage. 
However, over the past year we have seen very encouraging 
results. Transit zone disruptions, as you have mentioned, which 
include maritime and air seizures and mission aborts increased 
from 156 metric tons in calendar year 2003 to 222 metric tons 
in calendar year 2004, an increase of over 43 percent. In 2004, 
Colombian security forces captured nearly 180 metric tons of 
cocaine and cocoa base. Between the transit zone disruptions 
and the seizures of Colombian security forces, this equates to 
over 400 metric tons of cocaine that did not make it to the 
streets of the United States.
    Additionally, the security situation in Colombia has 
greatly improved: homicides have decreased 16 percent, the 
lowest homicide rate in Colombia since 1986; robberies have 
decreased by 25 percent; kidnappings are down by 46 percent; 
terrorist attacks have decreased by 44 percent nationwide in 
Colombia. We are encouraged by Colombia's success and recognize 
that they are at a critical point in their history, which is 
central to our counternarcoterrorist fight.
    With the assistance of the U.S. Government and under the 
leadership of President Uribe, the government of Colombia 
continues to build on their military and social successes. The 
government of Colombia has established a security presence of 
all of its 1,098 municipalities, arguably for the first time in 
their history. Colombia is an example of an establishing 
democracy that we must continue to support.
    In summary, we continue to press forward successfully in 
our fight against narcoterrorists and the drug trade. Despite 
the decrease in some asset allocations to U.S. Southern Command 
due to global priorities, we continue to leverage all available 
resources to accomplish our mission. We continue to derive 
benefits from mature command and control network, effective 
information sharing infusion, and a robust logistical 
infrastructure that is the backbone of our detection and 
monitoring capability.
    In conclusion, I would like to thank you for the 
opportunity to highlight the critical counternarcoterrorism 
work done by the men and women of U.S. Southern Command for 
U.S. national security, as well as regional security and 
stability in the partner nations. I look forward to your 
questions, sir.
    Mr. Souder. Thank you very much.
    Next question is Captain Jim Stahlman, Assistant Operations 
Office of U.S. Central Command.

               STATEMENT OF CAPTAIN JIM STAHLMAN

    Captain Stahlman. Chairman Souder, thank you for the 
opportunity to appear before you in support of the President's 
fiscal year 2006 Department of Defense counternarcotics request 
and to discuss Central Command's role in support of the 
counternarcotics effort in Afghanistan.
    U.S. Central Command provides support to the government of 
Afghanistan and to the Department of State's Embassy Kabul 
Counternarcotics Implementation Action Plan in construction of 
the foundation of an Afghani capacity to fight the 
destabilizing influence of a narcotics trade.
    In the fiscal year 2004 supplemental budget initial CN 
funding was provided by Congress which accelerated Central 
Command's and the Department of State's ability to develop this 
Afghan counternarcotics capacity. In just 10 months, CENTCOM 
has committed these funds to provide training to the National 
Interdiction Unit of the Afghan Counternarcotics Police to 
provide additional helicopter lift capacity for Afghani and 
Coalition CN units, and to begin construction of infrastructure 
for border control.
    In coordination with the Department of Justice, DOD has 
commenced construction of a training and operations facility 
for DEA foreign advisory support teams, FAST teams, and has 
provided pre-deployment training at Fort Benning, GA for five 
DEA FAST teams, including 32 personnel en route to Afghanistan.
    The fruits of these foundational labors are showing on the 
ground in Afghanistan. Over 100 NIU CN police have been trained 
and equipped, with 30 more in the training pipeline. We have 
contracted two MI-8 HIP helicopters and associated air crew and 
maintenance personnel to provide internal Afghani CN airlift 
capacity, and are refurbishing three more helicopters.
    CENTCOM has established a dedicated CN intelligence fusion 
cell embedded in the Combined Forces Command Afghanistan 
intelligence organization. Military and DEA liaison officers 
have been exchanged and are standing watch in the CFCA 
Operation Center in Bagram, and the DEA Operation Center in 
Kabul.
    CENTCOM has tested and implemented mission planning and 
coordination mechanisms which synchronize the CN efforts of the 
government of Afghanistan, United Kingdom, Department of State, 
DEA, and CENTCOM forces. When U.S. military support is 
required, DEA knows how to get it.
    This initial investment showed tangible results on March 
15th with the execution of the first NIU counternarcotic 
operation on three drug labs in Nangarhar Province, one of the 
primary sources of Afghan opium. Target selection and 
development and planning support were provided by the CN 
intelligence fusion cell. The operation was supported on the 
ground by DEA FAST team advisors. Helicopter lift to and from 
the operation was provided by the combined effort of both DOD 
contracted MI-8s and CENTCOM helicopter assets. In extremist 
defensive support and medical assistance was immediately 
available from CENTCOM assets.
    This first effort results in the destruction of 2 metric 
tons of brown opium, 15 kilos of high-grade white opium, as 
well as the collection of a significant amount of legal 
evidence.
    CENTCOM continues to support Afghan CN operations. Since 
March 15th, the NIU has conducted three additional missions. 
The MI-8s have provided over 100 additional flight hours of CN 
lift support. The CENTCOM intelligence fusion cell provides 
daily analysis of potential CN targets and mission analysis for 
planned targets. Biweekly coordination conferences sponsored by 
the embassy and supported by CENTCOM synchronize the overall CN 
effort.
    Since March 2005, all formal requests to CENTCOM for CN 
airlift support have been met, to include use of C-17s and C-
130's to provide transport for the Afghan Special Narcotics 
Force. CENTCOM is leaning forward to support this critical 
effort.
    I look forward to your questions. Thank you.
    [The prepared statement of Captain Stahlman follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Souder. Thank you very much.
    Our last witness is Mr. Lennard Wolfson, Assistant Deputy 
Director for Supply Reduction, Office of National Drug Control 
Policy. Thank you for coming.

                  STATEMENT OF LENNARD WOLFSON

    Mr. Wolfson. Chairman Souder, I am honored to appear before 
you today to discuss the fiscal year 2006 DOD counternarcotics 
budget.
    The President's Drug Control Strategy details the policies 
and programs designed to meet the goal of reducing drug use in 
the United States. That is clearly our objective. It is not to 
run programs, it is to achieve the end result of reducing drug 
use in the United States. In this context, the Department of 
Defense plays a critical role in the Strategy by disrupting the 
market for illegal drugs and also through an internal demand 
reduction program that has made a tremendous difference within 
the Department of Defense.
    The fiscal 2006 request from the Department of Defense, 
almost $900 million, will continue to fund an array of 
effective programs that support the National Strategy. 
Moreover, they are vital to achieving the National Strategy. 
DOD provides essential planning, command and control, 
communication, intelligence, and integrated op functions that 
are the core of national counterdrug interdiction efforts. But 
DOD does not act alone. DOD contributions are complemented with 
the special resources and capability of U.S. law enforcement 
and also our allies.
    Put in this context, DOD's unique capabilities cannot be 
replicated by any other department or agency. No organization 
in the world can conduct the integrated intelligence planning 
and operations like the U.S. Department of Defense. No other 
U.S. agency has the breadth of staff with the specialized 
capabilities. Highlighting this is the DOD-funded and 
principally staffed Joint Inter-Agency Task Force South, JIATF-
South.
    As indicated already, JIATF-South seized a record amount of 
cocaine this last year, but that doesn't tell the whole story. 
They have been seizing huge amounts of cocaine every year for 
the last 10 or 15 years. They are just getting better and 
better at it each year.
    More so, JIATF-South is not just a center managed by DOD 
and having interagency and international participation. It is a 
national asset and it works. The unique cadre of dedicated, 
motivated, and effective intelligence, planning, and 
operational staff focus on stopping the movement of cocaine 
toward the United States.
    Most important, they just don't do the mission, they 
achieve results, outstanding results. And that is what it is 
all about, to achieve the results of our National Drug Control 
Strategy. We don't just want programs, we don't just want 
funding, we want operational results like JIATF-South and DOD 
are achieving.
    In Colombia, DOD has trained police, military, and also 
that is achieving results. As indicated already, a lot of drugs 
seized in Colombia, but also the DOD-trained Colombian military 
has been transformed from a defensive-minded military of 1999 
into a force capable of launching sustained and successful 
offensive operations throughout the country against the FARC 
narcoterrorists. This is a dramatic change in just a few years.
    In regard to Afghanistan, DOD is also playing a vital role 
in the overall strategy, interfacing with Afghans, Department 
of State programs, DEA, other Federal agencies, and also our 
coalition partners. The administration and also the Afghans' 
plan really involves five pillars: deterring poppy cultivation 
and heroin trafficking, justice and law enforcement programs, 
eradication, alternative livelihoods, and interdiction. In many 
ways, DOD is participating effectively in support of each one 
of those programs, although one can argue DOD is not the lead 
for any one of them.
    In conclusion, while at war in Iraq and Afghanistan, DOD 
has remained committed to the counternarcotics mission and 
continues to achieve real results. Moreover, DOD's efforts 
cannot be replaced. The efforts are critical in reducing the 
amount of illicit drugs entering the United States and also in 
denying millions of dollars of illicit drug profits that could 
find their way into narco or into terrorist hands. Efforts in 
Afghanistan, cocaine transit zone, detection and monitoring and 
interdiction programs, intelligence programs, training of 
Colombian military and police, domestic support to law 
enforcement all contribute directly to disrupting the market 
for illegal drugs. All are critical elements in implementation 
of the National Drug Control Strategy.
    Most importantly, DOD is simply not funding and executing 
programs, they continue to deliver results, and we would expect 
2006, when funded, would be no different that we would expect 
results. Especially in the Western Hemisphere against the 
cocaine threat, DOD programs, as requested in the 2006 budget 
request, should continue to provide the critical element for 
reducing cocaine availability in the United States.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Mr. Wolfson follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Souder. I thank you all.
    I am going to try to divide up the questions a little bit, 
because basically if you look at this, Northern Command 
basically has our borders, Central Command is Afghanistan and 
the regions in that zone, Southern Command has Colombia and the 
South American and transit zone regions, Secretary Long is 
overseeing from the Department of Defense all the different 
operations, and Mr. Wilson is over at the ONDCP trying to 
interrelate this with our overall National Drug Control 
Strategy.
    First, let me kind of lay this statement out, because I 
want to acknowledge that, in fact, we have been doing well 
among seizures, and we should congratulate everybody who is 
doing well among seizures. Mr. Cummings has raised something 
that we are hearing on the floor in an increasing pressure from 
Members of Congress, which is why, if we are seizing all this, 
haven't we seen a change in supply and haven't we seen a change 
in price and haven't we seen a change in purity, of which we 
have offered a number of things.
    Director Walters said a number of years ago we were turning 
a corner, and if we didn't see a turn soon, we have major, 
major problems--that would be basically next year--that we seem 
to have learned what we didn't know. In other words, there may 
have been stockpiles, but the question is that we seem to be 
seizing more because we didn't realize how much there was.
    The question is are they also producing more or did we just 
not realize how much they were producing, which becomes a 
relevant question in the sense of--which many Members of 
Congress have asked at this subcommittee year after year--is 
are the seizures just a form of bad debts that the drug dealers 
take as a writeoff. In other words, they figure we are going to 
get 5 percent. If we move that to 6 percent, they just increase 
the amount they are growing. Or, in fact, are we getting to 
some kind of a point where we come to that tipping point that 
increased seizures put us over the top.
    Now, the reason I say all this is because my questions are 
going to be more on the difficult side, not praising those who 
have been doing the interdiction. Because I appreciate that we 
are doing the interdiction, but the fact is that we are being 
told that right now we have more actionable intelligence than 
we have the ability to respond to, which is a unique thing that 
we did not hear in this committee in the past few years. In 
other words, we have now learned that we can see the drugs 
coming into the United States and we are not stopping them, as 
opposed to ignorance was bliss before--they were coming in and 
we couldn't see them. And part of my opening statement was 
trying to reflect that knowledge, that our intelligence and 
knowledge of what is coming.
    Furthermore, as we try to sort through this different 
process, it appears that in spite of reductions at least in the 
transit zone of intelligence and in spite of holes in 
intelligence, much of this actionable intelligence is coming 
from one small agency, Panama Express, and that is what is 
providing a lot of our interdictions; it is not all these other 
operations that we have been talking about today. And that 
presents a challenge because it means that when we look at this 
governmentwide, our interdictions may be up, but it may be 
disguising actual cutbacks for whatever reason.
    So let me first start in the Western Hemisphere with 
Colombia in particular.
    I am going to diverge from where my questions were 
originally going to go and let me ask Captain Turner this 
question. You, in your statement, had quite a bit about 
extraditions and how important extraditions are in Colombia and 
how we have made progress, talking about things are in the 
public record.
    We now have people from our State Department and other 
people in Colombia who have been picked up dealing, and the 
Colombians are saying they should be treated under Colombian 
law. This is going to be discussed in general. I have supported 
the military position that we have to be careful about not 
exposing our guys to all sorts of harassment in countries 
around the world. Yet how are we going to continue this 
extradition policy with the Colombians if the Colombians see 
Americans dealing on their soil and then aren't held 
accountable by Colombian law? Could you elaborate any on that 
thought? And Secretary Long too.
    Captain Turner. I appreciate the question, sir; it is a 
good one. Those instances you talk about are presently under 
investigation, and that is about as much as I know. I know as 
much as you do, sir, I think on as far as where that is, and I 
can't tell you anymore than that. Regarding extradition, that 
is really out of my bounds as far as an operator. Those get 
into policy issues that I can't really answer for you, sir.
    Mr. Souder. Secretary Long, do you know anything on how we 
are going to approach if people in American armed forces 
violate? We had a little bit of this in Okinawa, but in our 
area here, in narcotics, it is really going to complicate our 
extradition life if we tell countries they have to extradite to 
the United States, but we won't allow American citizens who 
have been drug trafficking on their soil to be prosecuted.
    Ms. Long. Thank you. I am going to refrain from commenting 
on any specific instances, as you well know, that are under 
criminal investigation, but I think it is important to point 
out several things. While there have been some recent 
unfortunate instances of military and other personnel in 
Colombia who were engaged or apparently engaged in activity, 
these have been the exception over a very long period of time.
    So to compare them, as some in Colombia want to do, with 
the extradition procedures that they have with the United 
States for long-term, high level narcoterrorists I believe is 
inappropriate; and I think, from a policy perspective, that we 
should refrain from drawing those parallels. They are 
inappropriate.
    To the extent that I am aware, these are individual 
allegations of some low level involvement, they do not in any 
way rise to the very high level, very complex and well 
negotiated positions the U.S. Government and the Colombians 
have taken, which is that those at the highest level of the 
FARC and the other threats to the Colombian democracy will be 
extradited, when appropriate and extradition is requested by 
the U.S. Government.
    That is not the case in these instances, and I would fear 
discussing them in terms of that, and I feel fairly assured 
that whatever problems we may have in our countries in which we 
operate, they will not rise to that level, sir.
    Mr. Souder. We may have followup questions as we find the 
extent of it. I understand the basic principal, and it 
certainly would not be compared to the primary cartel leaders. 
At the same time, we extradite more than just cartel top guys.
    In the Western Hemisphere--maybe, Secretary Long, you could 
start--given the increased demands of the Department and some 
reluctance, of which you have been a champion of keeping the 
Department more aggressively involved in narcotics, but how do 
you see the Department of Defense role on things like the 
aerostats and other things? Do you believe more of that ought 
to be transferred over to the Department of Homeland Security? 
Clearly, we are looking at pressure in Iran; we are looking at 
pressures in Korea, all around the world. Is it realistic to 
expect the Department of Defense to continue as the lead agency 
in a lot of providing this intelligence?
    Ms. Long. I think, sir, that while some people have taken 
the position that the Department was reluctant to engage in 
counterdrugs, that is clearly not the case now. In fact, 
NORTHCOM, under the very fine leadership of that combatant 
commander, as well as the Secretary, are absolutely committed, 
particularly in North America, in our home, of making sure that 
we do everything--and that means everything possible--to 
protect the American citizens not only from the drugs that are 
coming across our shores, but from all transnational threats.
    And one of the things I think the Department has discovered 
perhaps post-September 11th, as the rest of the Government has 
discovered, is that the traditional stovepipes and separation 
of military, law enforcement, and who does what where aren't 
going to fulfill that task in the way that we are going to need 
to have it fulfilled.
    In pursuance of that, the Department has reached out and is 
working very closely, I believe, with the Department of 
Homeland Security, our own Department of Homeland Defense, with 
DEA, with law enforcement in attempting to come together with 
an absolutely integrated approach to securing our borders not 
only from a narcotics perspective, but from a homeland security 
and defense perspective.
    To the extent that any of those functions, once integrated, 
are more appropriately law enforcement functions, I think it is 
absolutely appropriate that those functions be headed by the 
appropriate law enforcement agency; and to the extent that 
those are national security and functions that are militarily 
unique, I think they should remain with the Department of 
Defense.
    But I guess my point would be I don't think the Department 
is looking for a turf battle. I think what we are looking for 
is the best integrated approach, and that we are willing and 
looking forward to working with our law enforcement partners to 
get the right mix.
    Mr. Souder. I am not interested in a turf battle either. I 
am interested in assigning whose turf it is on.
    Captain Turner, has the Department of Defense or SOUTHCOM 
requested additional money for the aerostats in the area that 
we are completely blind on the Gulf or on the eastern side of 
Florida?
    Captain Turner. As any agency would attest, more resources 
would be better. Of course that would be the case. With the 
integrated systems that we have, the ROTHR--the Relocatable 
Over-the-Horizon Radar--in conjunction with the ground-base 
radar programs that we have developed within the partner 
nations which we are actually working to sustain over time so 
that the partner nations can take over. The integration of that 
system and with the sharing ability that we have put in place, 
the architecture that we are putting in place is creating a 
fusion of effort.
    Certainly resources could be provided for that we could 
work, but we want to concentrate, from my perspective and 
SOUTHCOM's perspective, try to get to the threat as far away 
from our shores as possible. So we have concentrated more to 
the south of that to intercept those particular threats as far 
south as we can, and that is our particular goal, sir.
    Mr. Souder. Well, let me see the chart up there. And I want 
to say up front Congress bears part of this responsibility 
because they did not give adequate funding for the aerostats at 
different points.
    My question at this point is you can see where it was as it 
moved to the Department of Defense. The fact is while we have 
multiple ways of tracking ways and different things, we can see 
where the planes are and we can see our gaps in the system. 
Those gaps are public because it is unclassified information 
that is in front of you.
    We have charts that have been shown at our hearings that 
show the drugs flowing from Colombia over in the Cancun area of 
Mexico and the eastern side, and you see all this red, and we 
see it coming up the northern border. But part of the reason we 
don't see any arrows coming up the Gulf Coast is we don't have 
the slightest idea, and you can't publish a chart that shows 
where the drugs are going if you don't have an idea whether any 
planes or boats are in that area, because we can see them and 
then they are gone.
    So the question is repeated, have you requested additional 
money for aerostats? And if not, why not? And what do we need 
to do to close some of that gap? Not to mention the fact that I 
had one of the heads of BP Petroleum tell me that they are 
looking in that area south of New Orleans and east toward the 
panhandle of Florida, out 100 miles, as possibly the biggest 
oil find, bigger than Saudi Arabia. We are going to have all 
those oil derricks out there and we don't know what is going on 
in that area.
    And the question is are we going to request something? Is 
there going to be something? If the Department of Defense is 
going to take the lead, this becomes a huge homeland security 
question as well, with the all the oil derricks out there. And 
the question is if the Department of Defense isn't going to 
request it, then why shouldn't it be over in the Department of 
Homeland Security, because somebody has to request something.
    Ms. Long. Mr. Chairman, if I might interrupt for just one 
moment.
    Mr. Souder. Yes, Secretary.
    Ms. Long. I believe NORTHCOM has some interesting insights 
on this issue, and then I can close the loop.
    Mr. Souder. Yes, I guess actually it is more NORTHCOM in 
this case, once you get up to aerostats. I apologize for that.
    Captain Turner. But, sir, if I could, before we transit----
    Mr. Souder. You are going to have it out when it is out 100 
miles.
    Captain Turner. Yes, sir.
    Mr. Souder. But who is going to have it at the border?
    Captain Turner. What this does not show is the ROTHR 
coverage that we have as well. If you are going to make this 
chart really complete, I believe it would have to show all our 
radar capabilities, which would include the ROTHR, which is 
significant.
    Mr. Souder. I have to say, though, that when I have gone to 
the areas and you are watching, that may be true and either one 
or two things is happening: either agencies aren't sharing 
intelligence, which is another problem, or, in fact, it covers 
part of that, but not the zone that we have. Because in the 
Joint Intelligence Centers which are kind of known entities, 
the fact is that we are blind in some areas; we aren't in the 
places and we lose them. We have ways to pick them up again, 
but we spend a lot more money trying to pick them up again than 
it would take to not lose them.
    Colonel Nelson. Mr. Chairman, to address your question 
about TARS from a NORTHCOM perspective, that is part of the 
U.S. NORTHCOM AOR. It is actually a NORAD managed system; it is 
part of our binational arrangement with Canada, U.S. Northern 
Command through continental air defense region, and Tyndall Air 
Force Base receives those feeds from the Tethered Aerostat 
Radar Systems.
    Department of Defense has directed that we maintain status 
quo, and we have planned on maintaining the system until such 
time as we desire to upgrade to a system called the wide area 
surveillance system, to increase our coverage at low, slow 
flyers below 2000 AGL. It is more reliable, not necessarily 
relied upon good weather conditions.
    As you are probably well aware, during high wind situations 
we have to take the tethered aerostat system down, so that also 
presents gaps in seams as well. So we believe that the solution 
long-term is the wide area surveillance system to provide 
better coverage for the area in question.
    Mr. Souder. And what is the timetable for that?
    Colonel Nelson. Right now, I know it is programmed, but I 
will have to get the specifics on that for you.
    Ms. Long. Mr. Chairman, if I might add, as you well know, 
years ago when the Department took over the Tethered Aerostat 
Radar System, there were various times in its development when 
it was considered that the system in its entirety be provided 
to the homeland defense, and it is my understanding that the 
homeland defense did not have the funding nor the expertise in 
order to maintain the systems and, in fact, had contemplated in 
their assumption of the system actually turning it back over to 
the Air Force and having the Air Force assist them with the 
system, which didn't seem to make much sense from a taxpayer 
and national security perspective.
    I can tell you, sir, that even in the last months, as part 
of a homeland defense, homeland discussions of our overall air 
and maritime awareness picture for the United States, we have 
reexamined the Tethered Aerostat Radar Systems as part of this 
overall framework which NORTHCOM is advocating, looking at even 
the possibility of upgrading, making tweaks to the system while 
we are waiting for the other system to come online.
    I don't have a timeframe for you, but it is something that 
we are painfully aware of, as well as we are painfully aware of 
that with the increased derricks and oil gas activity in the 
Gulf, maybe even the traditional radar system isn't going to be 
sufficient because we end up with so many bogeys, if you will, 
with planes and helicopters flying into those platforms.
    So we are taking a look at it from a defense perspective 
and working with homeland defense and homeland security to make 
sure that where we know there are gaps--and these are gaps, you 
are absolutely right, sir--that we are working to address them.
    Mr. Souder. And we have looked at ROTHR radar in different 
places--South America has been my most exposure to that--there 
are different things you are looking for for long-haul flights 
and short-haul hops; what the altitude is, what the speed is, 
very precise information as they near the border. It is a 
little different than when we have the entire Caribbean with 
which to catch them.
    It is a whole other thing when they are about to come into 
the United States and we want to know precisely where they are 
landing, what altitude they are, how fast they are coming, 
because they are headed to local law enforcement. It is not a 
theoretical person coming in somewhere from Colombia, it is a 
very precise thing we are trying to nail. And, also, while they 
do try to fly in stormy weather, the fact is that if you can't 
get an aerostat up, it is also harder to move these small 
planes around, and they become more conspicuous when they are 
landing because there is less activity in many of those areas 
because the same thing that makes it difficult for the aerostat 
makes it difficult for small planes. Not to say that drug guys 
aren't going to try to hop that, or terrorists, obviously, 
whenever we are dealing with it.
    And I want to make it clear, as will become clear in my 
questions and in my past comments it is certainly true, 
Department of Homeland Security I am not always pleased that 
they don't divert from narcotics as well. So it isn't a given 
place where it is going to be better for narcotics having the 
resources, which agency should have the resources. What we want 
is an agency that isn't going to divert them, is going to 
understand that homeland security is a part of this, but 
narcotics are a key part.
    Captain Turner, if you could talk a little bit about the P-
3 hours, because P-3s also serve actionable intelligence, in 
addition to broader intelligence, and our ability to interdict 
as it moves. I don't think we have any disagreement that the 
farther away we can get the drugs, if we can eradicate it, that 
is our first choice, if we can get it before.
    But as it moves closer to us, we need to have higher odds 
of interdicting, because now it is basically a skate, it is a 
skate the eradication, it is a skate the transit inside 
Colombia; it is now headed to the United States. And the Navy 
has played an absolutely critical role in having adequate 
resources over time to act on the actionable intelligence, and 
yet that is where we have seen the declines in this transit 
zone.
    Could you address some of that and how you intend to make 
up for some of these gaps of the things that we now see moving 
toward ups?
    Captain Turner. Yes, sir. Certainly, the loss of the legacy 
aircraft, the P-3--and it is a legacy aircraft, and that is 
predominantly why we have seen such a decrease in its numbers, 
but that is worldwide. It is an MPA platform that has seen its 
best time, and we have realized that from across the DOD 
spectrum, that the P-3 has been radically cut in deployment 
across the globe. And the Navy is aggressively working for 
replacement of that aircraft.
    In the meantime, we have addressed our concerns with 
interagency partners, the customs, of course, the custom P-3s, 
as well as looking for other assets that can support that 
internationally, deployment of Nimrods is very important to us, 
as well as looking for other sources perhaps at some other 
platform that could fill that gap.
    This is a constant concern on our end, and we work very 
closely with the interagency aspect--whether it is Coast Guard, 
Customs, and the international community--to help with this 
concern. But this is a legacy aircraft that was on its way out, 
and the Navy is working to replace that particular aircraft.
    Mr. Souder. You said it is system-wide. If you were to 
compare the execution orders of last year and this year, what 
percentage reduction would we see in DOD aviation assets 
dedicated to the counterdrug mission in the Western Hemisphere?
    Captain Turner. Well, you are looking at one platform, sir, 
and there are many platforms out there that are just as 
important. For instance, the AWACS was mentioned earlier. The 
numbers that were given representative of the AWACS we just got 
back in SOUTHCOM deployment in support of the CDX order that we 
have. AWACS just came back into our theater at the end of 
November. Thanksgiving was its first deployment date. That was 
one aircraft. So the numbers that you see for 2004 reflect only 
1 month of activity.
    In March we got our second AWACS. What this has allowed is 
that in support of air bridge denial program, we can put an 
AWACS up for that and redirect the Customs aircraft that were 
completing that mission to support the MPA deficiencies that we 
have. So it is an efficiency of assets and resources that we 
are working with here.
    Mr. Souder. So I interpret your question--to paraphrase 
Mark McGuire--you are not here to talk about the past, what you 
are saying is that lots of drugs got through last year, but 
this year you are going to do more because you have the AWACS?
    Captain Turner. Well, sir, it was a record year last year, 
so----
    Mr. Souder. Not a record year for percentage. In other 
words, percentage of what we saw we got less. What we got was--
--
    Captain Turner. Are you talking about the intel aspect of 
this?
    Mr. Souder. Yes. In other words, we saw last year more than 
we ever saw before and got less of a percentage of what we got. 
We got more, but that is like saying a baseball player got 100 
hits and the next year he got 150 hits, but 1 year he had 300 
at bats and the next year he had 500 at bats. He had 500 
chances to get it, he got 150, but that means your batting 
average has dropped.
    And I am not criticizing the men and women of the armed 
forces, I am just saying what we see--as a practical matter, 
what we know on the streets is that more must be coming in 
because we are interdicting more and the price and purity 
isn't, and the ONDCP is saying that drug use is down somewhat.
    So if drug use is down, price and purity are there--drug 
use at least in marijuana is down--that we have some kind of a 
mismatch in the numbers. And part of the question is if 
everything was going this great, we wouldn't need the AWACS 
back there. Clearly, we had them diverted. What we are trying 
to establish is in the multitasking of missions, when you move 
AWACS away, when assets that are older are declining, you can't 
have it both ways. You can't say we are covering everywhere in 
the world with less and an equal amount. We made certain 
decisions in the United States that we were going to move AWACS 
and other things to higher priority targets. In that period we 
did the best we could in narcotics. And now we are moving those 
assets back because we don't need them in another place. Isn't 
that what you just said?
    Captain Turner. Well, sir, we are getting our AWACS, but it 
is the first time since September 11th that we have gotten 
AWACS back, and that is a true statement, yes, sir. And what we 
are also seeing is the intel infrastructure that we have put in 
place, the assets that we are putting toward intel, the 
collection of the intel information, the analysis of the 
information is giving us a better product; and it is right, we 
are seeing more now, and that is because of many years of 
building to this point. Also, we have more DOD assets in there. 
EP-3, EC-130, C-26, CSS, ARL, these are all assets that we are 
now, from a DOD perspective, putting into the fight, and we are 
seeing more, yes, sir.
    Mr. Souder. And what we are in effect saying is that, to 
some degree, if we are seeing more, we want to get it, and how 
can we get precise as we get more intelligence to try to--
because in the Navy we also have a fundamental question of, in 
addition to the air assets, are water assets, which are 
critical in our ability to execute. Have you seen a change in 
any of the oilers, other types of assets that the Navy 
Department uses to assist?
    Captain Turner. No, sir. That has been pretty steady state. 
We have been receiving the requested amount of surface assets 
and we are pretty much steady state as far as our maritime 
assets go. What you have seen is a depreciation in one 
particular asset, and that is the P-3, is the concern.
    Mr. Souder. And you don't have the numbers for how much it 
went down?
    Captain Turner. Of the P-3? What numbers you stated are 
true.
    Mr. Souder. OK, thank you.
    Let me move briefly to Captain Stahlman for Central 
Command, and once again, Secretary Long, if you have comments. 
I have a couple of kind of fundamental questions.
    You stated in your testimony that there were three 
different groups that were threats to stability in Afghanistan. 
How do you think these different groups are funded? In other 
words, as these groups exist and as groups that exist to 
destabilize Afghanistan, since they don't seem to have much of 
another economy and since we shut down the finances, isn't it 
logical to assume that the heroin is likely to be their 
fundamental funding source?
    Ms. Long. Yes, Mr. Chairman. Actually, we have spent a 
considerable amount of time in the last months developing 
intelligence, and I think it has come to support in many 
respects what appears to be a common sense conclusion: that 
when you have an economy that is upwards of 60 percent, either 
directly or indirectly, narcotics-driven, that anyone operating 
in the area in practically any kind of commercial transaction 
or activity is at least in some respects deriving if not direct 
benefit, indirect benefit from the sale of drugs.
    The Hezb-e-Islami Gulbuddin, the HIG, as you are aware and 
the Taliban and some of the other terrorist organizations, we 
have been developing linkages between those organizations and 
narcotics organizations. Because we are an open forum, I will 
leave it at that. The ties with al Qaeda may be less strong, 
and we are still developing those, but importantly, and I think 
the point that you are attempting to make, warlordism and other 
insurgents or other anti-government groups are getting their 
funds and support from somewhere, and I think it is logical to 
conclude that they are at least in part narcotics-driven.
    Mr. Souder. And I understood, Captain Stahlman, did you say 
the first raid was in March?
    Captain Stahlman. The first raid for the NIU, their first 
operational mission was March 15th, yes, sir.
    Mr. Souder. And what are we to do before March 15th?
    Captain Stahlman. Sir, we were developing a capacity with 
the Afghanis for the capability to do this. The U.K. was 
working with the Afghan special police units creating that 
capacity and essentially we had a new Afghani government in 
place in December, and these were the first organizations that 
were in there available to them under their forestructure to 
conduct these kinds of missions, sir.
    Mr. Souder. We have somewhat of a policy difference here--I 
appreciate that the administration is evolving with this, but 
let me ask Mr. Wolfson do you agree with the basic thrust that 
seems to be out of the Defense Department and, to some degree, 
the State Department, as they approach Afghanistan, that before 
we arrest any inner-city kids in the United States, we ought to 
have an alternative development program and they ought to have 
jobs that are well paying, or do we treat American citizens 
different than we treat people overseas?
    Mr. Wolfson. Clearly, the Afghan situation with the economy 
and the desperate situation after literally 20 years of 
destruction is a unique situation. Per capita income in 
Afghanistan is a little over $200 a year. The people are 
desperate. Clearly, there are some individuals that emphasize 
the essential need for alternative development before you 
enforce the rule of law.
    Our view is there has to be a combined effort; you have to 
raise the deterrence, for instance, of eradication and blend 
that with an appropriate level of alternative livelihood. You 
can't just go out there and suspect that you are going to ever, 
either with U.S. funding or international funding, find enough 
money to give everyone in Afghanistan a better job.
    Mr. Souder. I don't have them in front of me, but I am 
happy to look up and put into the record administration 
statements about how we view the Taliban and not cracking down 
on heroin. We didn't say, by the way, Taliban, create a bunch 
of alternative development, we said stop the heroin. And I am 
not arguing we don't do alternative development, but 60 percent 
of minority males in many urban areas don't have a job. That is 
roughly the same as Afghanistan. Different standard of living 
comparisons, but we don't say we are not going to arrest 
somebody on the street corner until they have an alternative 
job in the United States.
    And I am not arguing we shouldn't do alternative 
development. What I am arguing is that Colombia, which has been 
heralded as a reasonably good example and a very tough 
neighborhood where I believe a 200-year democracy has been more 
or less destabilized by our drug habits in the United States 
and Europe, and you all are trying to train people who have had 
a history of a democracy--shaky democracy, but probably the 
most steady in that whole region--where they have a police 
department, they understand the difference between a police 
department and a defense department in Colombia. We are now 
going into a country where they have none of that and we are 
saying we are not going to eradicate until they have 
alternative development, until they have stood up their police 
department? I mean, this may take 50 years.
    Now, I believe President Karzai is absolutely committed to 
trying to do what he can. Realistically, you know full well we 
don't control the ground there, we own the ground there; that 
the DEA can't go into operations without the military 
protecting them, the State Department can't fly in there and 
eradicate without our military protecting them. They don't have 
black hawks. Colombia has black hawks of their own; Colombia 
has trained military operations. And we need to train the 
Afghans as far as we can.
    But, meanwhile, the standard with which we held the 
Taliban, who never allowed this much heroin, as the U.S. 
military allowed on our watch--the Taliban never allowed that. 
We yelled at them, we screamed at them, we said eradicate it. 
And when it came to our government, we say, well, it is 
complicated; we have to work this through; they need to have 
alternative crops. This used to be the bread basket of the 
world. They can plant other crops now.
    The king told us multiple times in meeting with him in Rome 
and in Afghanistan that this area can grow other crops, it has 
grown other crops. They can't make as much money with other 
crops. That is the problem. It isn't that they need an 
alternative development; they need to grow wheat like they used 
to grow wheat, but they can't get the same amount.
    So what is the double standard in the United States? We 
tell kids, well, you can't make as much at McDonald's as you do 
selling cocaine, so until you can make as much in a job selling 
cocaine? They can grow other things. These fields that grow 
heroin can grow other things. There is a market for food. We 
are having to import food in.
    I am seeing a disconnect with this, and part of it is we 
can't tackle the heroin problem without the military. And I 
understand it is an awkward position for CENTCOM and our 
government to be flying around the country and to do that, but 
we have spent $343 million to eradicate 2 tons, to get rid of 2 
tons, basically. That is a very costly rate. It is a start, and 
I want to applaud you on a start, but it has to go faster, and 
you can't do it with three DEA agents and a little tiny task 
force tackling the biggest heroin production in the world.
    Then, in your testimony you talk about the money being 
spent in Azerbaijan. Why are we spending money in Azerbaijan? 
Because we screwed up in Afghanistan, now the heroin is moving 
across, leaving a path of destruction as it moves through 
Uzbekistan and Kazakhstan and into the Balkan region, where 
everybody realizes it is mostly going to go into Europe and 
probably squeeze more Colombian heroin back into the United 
States. This is a huge problem, and we have to, I believe, push 
at, at least, double, triple, quadruple the efforts you are 
going. I am not arguing that you haven't made a start. I am 
still upset about the past, because it is there, and it isn't a 
matter just going, hit a lab or two, it is hit the cotton-
picking stockpile; not as an afterthought on a raid where you 
happen to see it, go find it and hit it.
    Secretary Long.
    Ms. Long. I just want to correct what appears to be perhaps 
a misperception, and perhaps we have been less than diligent in 
explaining the administration's position. It certainly isn't my 
understanding of the administration's position or the 
Department's position that we are waiting to interdict drugs or 
make arrests until alternative livelihood or economic 
alternative programs are in place.
    And in fact, the U.K., as lead nation, has been undertaking 
interdiction, and very successful ones, for some time now. And 
it did take longer than it should have for us to stand up the 
National Interdiction Unit, but it is stood up and operating.
    One of the problems and the tensions that exists, sir, is 
that in a country like Afghanistan, where you don't have a 
judicial system and no capability to arrest individuals, you 
are sort of in a catch-22 with interdiction activities. You can 
arrest the individuals and destroy the drugs, but when you 
don't have a place to even put them or a system in which to put 
them, the effort becomes somewhat farcical at a certain state, 
and that is why we are attempting to develop all the prongs of 
the five aspects of the program that Mr. Wolfson pointed out in 
order to move these along in a coordinated and integrated 
manner.
    On the issue, however, of interdiction, your point is well 
taken in that we need to interdict more. There is a problem 
with Afghanistan that is somewhat unique, and the king, as you 
pointed out, I think may have jumped over a slight issue which 
is unique to Afghanistan, and that is, unfortunately, during 
the Soviet occupation and thereafter, many of the farmers 
turned to opium and poppy growth eventually and, in fact, their 
rents and mortgages were based on poppy prices.
    So they are in fact indebted to poppy, and, unfortunately, 
due to the 20 years of destruction, there are no alternative 
financial resources for them to substitute that debt. And with 
the war prices have increased, not only the prices of mortgages 
and rent, but foodstuff. So you have the farmer in a very 
vicious inflationary cycle, where if he plants wheat--and you 
are entirely correct that at one point this area in Central 
Asia was the bread basket--he will still starve because he 
can't make his basic payments or feed his family.
    That is not to say, sir, that eradication is not being 
pursued; it is. The State Department, as you well know, is 
pursuing eradication, and the Karzai government has been 
adamant and unfailingly supportive of all aspects of their 
counterdrug campaign, and we are supporting them the best we 
can. But it is somewhat complex, and we perhaps haven't done a 
good job and we were a little late getting started, as you 
pointed out, but I do believe that the mix that we are 
examining and working every day is the appropriate mix by 
moving forward with all of these prongs at the same time.
    Mr. Souder. You raised a number of other issues. I think it 
is important to point out that the amount of heroin that came 
out since we removed the Taliban is more than 4 years previous. 
In other words, for your theory to be financially an 
explanation, the question is why was there so little production 
and why were there zero years under the Taliban, and it 
happened 1 year? A second part of that is to whom do they owe 
the debt, which is another fundamental question which means 
that basically we don't control the ground. What you are saying 
is that the heroin poppy people control the ground because they 
can still enforce those debts, which any legal society would 
not honor because they are debts for peddling poison that 
murders people and based on a false premise. And if in fact we 
controlled the ground and destroyed the assets, and would 100 
percent eradication, now you basically told me, what I got out 
of that was alternative development isn't really the problem 
here, it is dealing to the degree, what percent that is at debt 
structure and an elimination of the drug lords who have a choke 
hold and are not going to be impressed that they are now 
growing wheat. It doesn't change the debt question just by the 
fact that we are going to push alternative development, because 
we will never be able to retire that debt, the same holds true.
    But it is interesting and it shows its complexity, but it 
addresses the question of we have to get control of the ground, 
and without getting control of the heroin, we are not going to 
get control of the ground because the equipment they are 
purchasing with which to shoot at the planes when we come in to 
eradicate, the equipment they are purchasing increasingly to 
shoot at us as we go try to destroy a stockpile now that we 
have the will to do so, is being bought with heroin money 
because they don't have any other economy with which to buy it, 
and we have shut off their foundations. So we have to get at 
the core of the heroin problem or we cannot stabilize 
Afghanistan. And I understand it is a poor country and we have 
to understand that.
    On the other hand, that doesn't give them the right to ship 
more death out. We are going to have more death from the heroin 
coming out than we did on September 11th, and that is a tough 
statistic to handle, that there will be more deaths from the 
heroin coming out than happened on September 11th.
    Ms. Norton.
    Ms. Norton. Mr. Chairman, I very much regret that a 
groundbreaking in the District and another hearing made it 
impossible for me to hear these witnesses, because this is an 
important hearing and one I am particularly interested in, and 
I appreciate that you have called a hearing on this subject. I 
am terribly perplexed by it and hope to learn something from 
the testimony. I certainly will take the testimony with me. But 
I do have a question simply based on the explosion of poppy 
since we have occupied the country.
    It looks like we have gone from an Afghanistan we found as 
a major supplier of terrorists to a major supplier of poppy and 
heroin. If history records that was a result of this heroic 
war, I think we will have only ourselves to blame. We had to do 
what we did, and America is grateful for what we did.
    And the chairman asked, well, how come it exploded once we 
got there. Well, of course, the Taliban would probably cutoff 
your hands and everything else it could find. So we knew what 
kind of society they were looking in, so we were on notice that 
if we wanted to keep things anywhere close to where they were, 
we would have to try something very different in keeping with, 
of course, their culture, but with our democratic mores.
    I am concerned that, on Homeland Security Committee, for 
example, the way we are approaching WMDs is we want to keep--we 
don't talk about what happens when they get here, we talk about 
what we should be doing abroad to make sure the explosives on 
WMDs don't get in cargo. Of course, when it comes to demand for 
drugs, we are long past the point, and really lays the basis 
for my question. I am very, very concerned that this word that 
is thrown around, narcoterrorism, is something we don't know 
what we are talking about. We know that there is some illicit 
trade with people who would be committed to terrorism going on. 
We know that. We know that drug dealers often engage in other 
kinds of trades. That is their MO. You don't have to have ties 
to al Qaeda to know where to sell the stuff.
    So I am just very worried that all this word talk about 
narcoterrorism doesn't have anything under it, because we 
certainly wouldn't be looking at the same places we look for 
terrorists. These folks are out selling it, I am sure, in the 
way they sell drugs, wherever they can, and in places that we 
would not suspect.
    The warlords are the functional equivalent of kingpins 
here. We always say we are trying to get them. We don't do a 
very good job, but at least we know that you have to go at them 
or you don't do anything. Very sensitive when you are talking 
about a foreign country, and one that we have very good 
relationships with.
    My question really goes to whether or not we have even 
found our way to a military role here. That is not the kind of 
role we have traditionally played, but the chairman's memo 
describes statistics that lead me to believe this issue is so 
out of control that we simply ought to face it and talk about a 
wholly different approach.
    For example, if it is true that 87 percent of the world's 
illicit opium this year comes out of Afghanistan, with a $2.8 
billion return, 60 percent of the GDP of the country, I would 
say this is so far beyond us that it kind of looks like where 
we are in the inner-cities. You know, can we get rid of drugs 
in Harlem and Southeast Washington? Yes, if this were 50 years 
ago.
    It has gone so far that so many other issues that impinge 
on it now, some of them the chairman has mentioned, you know, 
when the economy of inner-cities went, jobs go offshore, a new 
economy set in, it was the drug economy. It looks like that is 
what happened here big time.
    I have to ask you whether or not there is any way short of 
an explicit military role or, in the alternative--let me give 
the only other alternative I can think of, one akin to what we 
do. We pay farmers not to grow stuff. So the alternatives I see 
here is a much more explicit military role, on the one hand, 
or, on the other hand, real subsidies to the country so that, 
in fact, warlords and everybody else get some kind of legal 
tender, the rationale of which would be not only will this hold 
them in place until we perhaps get a real economy going there, 
but it will help us with the rest of the world who gets the 87 
percent of this narcotics traffic that we have helped to 
create.
    So I want to know if, with these figures, you see any 
alternatives besides a more explicit larger military role or a 
huge subsidy role of the kind that would hold the country until 
the economy got going.
    Ms. Long. With your permission, Representative Norton, I 
will take that on. I think that some of the questions that you 
point out are particularly insightful, and those are ones that 
we discuss practically everyday as we all get together and talk 
about the various roles that the Department, along with the 
other sister agencies, are playing.
    I do think the Department plays a critical role in 
interdicting drug, monitoring and detecting drug movements into 
the Western Hemisphere, in particular the cocaine, which is our 
principal concern, coming out of Colombia. And as you pointed 
out----
    Ms. Norton. Where does the 87 percent go, by the way?
    Ms. Long. I beg your pardon?
    Ms. Norton. Where does all this opium go?
    Ms. Long. I think the 87 percent that you are referring to 
is the Afghan opium. Most of that actually goes to Europe and 
to Russia.
    Thankfully, thus far, my understanding from DEA is that not 
much, if any, of that opium has reached our shores, which 
brings me to my point. We can't abandon the effort in 
Afghanistan because, as the chairman pointed out, with such an 
explosion, the market being as it is, it is our great fear that 
eventually such a surplus may result in the opium products 
coming to the United States.
    I think----
    Ms. Norton. Or going to terrorists, who then shop it around 
anywhere they can find.
    Ms. Long. That is correct, and are looking for easy means 
and illicit means of support because it is easier. And, as we 
all know, narcotics is a fast way to gain lots of money.
    I think probably the answer is not to pay farmers. You 
might be well aware that was an approach that was applied by 
the Colombians and actually was advocated at one point by some 
of our colleagues in Afghanistan, and what was found was when 
you pay a farmer not to plant, he depends on that and may not 
be telling you that he is planting elsewhere, and what it 
actually ended up resulting in was some misrepresentations in 
the reporting and not a substantive decrease in the actual 
plantings. The Karzai government has been clear. Because of 
religious and other principles and moral values that they share 
with us, they are adamant that not only will they not pay 
farmers not to plant opium and buy it, but, in fact, the 
illicit use of opium worldwide wouldn't lend itself to actual 
licit production and utilization of the opium out of 
Afghanistan, it is just too much.
    I think----
    Ms. Norton. Nobody would plant it if you said don't--well, 
if you can't police it, I can understand it, but nobody would 
say plant it and then we are going to take it and do something. 
Are you suggesting plant it and then burn it or something? 
Because that is not what I was suggesting.
    Ms. Long. Well, the alternative would be plant it and not 
take it and allow the----
    Ms. Norton. Well, how about not planting it?
    Ms. Long. Well, actually, the U.K. also tried that, they 
paid farmers not to plant in Afghanistan. They have tried 
various approaches, and that also didn't work in that what the 
farmers did was not plant where it was easily ascertainable, 
and then plant in places that were further up in the hills; and 
the result was the increase that we are all seeing, at least in 
part.
    So I think what the international community has come up 
with is basically a better integrated effort: more 
participation by coalition members, including our allies; a 
stronger effort by the Karzai government; and a stronger effort 
by the actual region to attack the drug trade. It is critical--
and I sense your frustration--to note that the Karzai 
government really has been in office for less than a year, and, 
in fact, their regional and their other elections are not even 
coming up until this fall.
    They have made tremendous strides, I believe, in the last 
year, and I believe with the concerted effort of the integrated 
U.S. governmental entities that are working with the U.K.--the 
Italians, the Germans and other coalition partners--that the 
better effort is going to be the better integrated effort.
    Ms. Norton. Mr. Chairman, that is my question. All I can 
say is this jargon about integration still does not in fact say 
that there is a strategy. With all due respect, this country is 
hooked on opium, and I can only tell you if any sector, the way 
inner-cities, for example, are hooked on opium, once you get 
hooked on opium and opium money, the notion of extracting 
people from that--at least if our experience in this country is 
any example--is virtually impossible.
    I see this, frankly, getting worse over the years, not 
getting better without some fresh strategy that looks at a 
country that is now so ensconced in opium production that 
without a radical new approach, just us all working together to 
do good things we have already done--if that is going to be our 
approach, Afghanistan will look like the inner-cities of 
America, except they will be growing it instead of simply 
distributing it.
    Thank you very much, Mr. Chairman.
    Mr. Souder. Thank you.
    I wanted to comment briefly too that one thing about paying 
people not to grow wheat, for example, or corn as a legal 
substance, so what happens sometimes is when you pay them not 
to, they grow more of it, and that is likely what will happen 
here. As we come up with alternative development, as we pay 
them not to grow it, other countries will start to grow it so 
they can be paid not to grow it. And it is a problem in the 
agriculture area of the United States, let alone worldwide.
    I want to just make sure this is on the record. What I 
think personally is going to happen is that the world market 
can't absorb much more heroin than it is, although they will 
market it, so they will warehouse it, and we will see 3 years 
of people coming up to hearings telling us what a great job we 
are doing of eradicating heroin in Afghanistan, and how we are 
doing such a wonderful job, and we have seen the amount of 
heroin poppy decline not because of anything we are doing, but 
because they have plenty of it.
    So unless we go after the warehousing--and then 4 years 
from now we will see another surge of planting because we 
haven't dealt with the fundamental question of if we see a 
poppy plant, we are going to eradicate it and talk later. An 
aggressive interdiction strategy, if we blow up the stockpiles, 
if we go after that--will send a message of aggressiveness, and 
then we need to work at how to help in alternative development 
and other areas.
    Now, I have a couple of other questions for Mr. Wolfson. 
The National Interdiction Command and Control Plan is an 
interagency effort that ONDCP coordinates. Since September 
11th, we have the whole rise of Customs and Coast Guard and DHS 
and a whole changed landscape. What is the status of the 
National Interdiction Command and Control Plan now, and what 
steps are you taking to ensure that the new plan is 
sufficiently comprehensive, and do you plan to issue it soon?
    Mr. Wolfson. Yes. Actually, we went through quite an 
evolution to make sure it met all the different needs. And, as 
you point out, there are competing requirements to make sure 
just the right level of counterterrorism is in there, just the 
right level of drugs are in there so that the correct latch-ups 
exist. We are at the point now where the final version is 
actually available, and I would estimate that it will actually 
be signed within the next couple of weeks.
    Mr. Souder. Thank you. Also, in the General Counterdrug 
Intelligence Plan, the last time a thorough one was pulled 
together was under President Clinton, and you did an update in 
2002 on the progress of the original plan. Are you working also 
to review that all-encompassing National Drug Counterdrug 
Intelligence architecture? We have passed legislation in 
Congress of concern about this. We are dealing with this, the 
seemingly proliferation of agencies that are collecting 
intelligence that will overlap with counterdrug intelligence.
    Mr. Wolfson. The existing plan and the steps forward are 
being reviewed. At this point I can't tell you definitively 
what action is being taken, but clearly that document, the 
original document, in my recollection, just be 5 or 6 or 7 
years old. It had something like 80 important issues that had 
to be addressed. Many of them were, but I think we are 
reviewing what should be the appropriate next steps.
    Mr. Souder. Thank you.
    I also wanted to come back again to Captain Turner. In the 
first quarter of 2005, what was the percent of air patrol hours 
provided by DOD compared to what was provided by Homeland 
Security, do you know?
    Captain Turner. I don't have that exact answer for you, 
sir. It was less.
    Mr. Souder. Can you get us a particular for the record?
    Captain Turner. Yes, we will give you that.
    Mr. Souder. Also, was this a decrease or increase over 
2004, if you took it by quarter?
    Captain Turner. Are you talking about the ratio?
    Mr. Souder. No. Ratio would be interesting, but I was more 
wondering you said you have the AWACS back, but in your air 
patrol hours will the first quarter of 2005 show the changes? 
And I didn't think about the percentage. Is there also a 
percentage? Would this alter the percentage too?
    Captain Turner. Yes, sir. And certainly with the AWACS back 
it does increase the Custom Border Patrol aircraft usage for 
MPA, as an MPA asset. And what I want to make clear is that it 
is an integrated effort. JIATF-South takes its resources and 
best puts them into the right mission mix, and that is why they 
are there.
    And it is not a competing effort; we don't compete with 
Department of Homeland Security, DOD. This is a team effort 
that JIATF puts together and a coordinated effort that they 
take what they have, whether it be international Nimrods, 
Customs P-3s, Navy P-3s, Navy S-3 Vikings, whatever it is, the 
put those together to best support their mission, sir.
    Mr. Souder. I wasn't really looking at it as competing. 
What I think the data is likely to indicate--and we would 
appreciate the supplemental data. There are two questions. If 
you take what you have been putting in as raw hours, what DHS 
agencies are putting in as raw hours, the DHS hasn't been 
substantially increasing. What has been happening is you have 
been decreasing. So we have seen a percentage flow over to DHS.
    And part of the question is, Mr. Wolfson, as you see this 
shift, what are you proposing to do about it over in the drug 
czar's office from the supply interdiction question? Part of 
this may be because post-September 11th we had assets that left 
because we needed them in Iraq and Afghanistan, and none of us 
are going to put that many troops in harm's way and not have 
adequate intelligence. But on the other hand, if Iran or Korea 
changes 6 months from now, we are right back to where we were. 
What we have seen is a shift. In this plan that you have coming 
out in a couple weeks, are you addressing that question? Also, 
you said that you are looking at an intelligence question. Is 
this one of the things you are looking at? Because this has 
been a rather significant switch in percentage of resources 
without increasing the resources at the Homeland Security side, 
but yet in creasing their percentage of the resources that are 
out there.
    Mr. Wolfson. Let me add some general comments and then I 
will try to answer your specific questions. Successful 
interdiction over what amounts to 6 or 7 or 8 million square 
miles of ocean and maybe 20 or 30 sovereign countries is 
terribly important.
    We hope to have enough ships, enough aircraft to have 
blanket coverage that will be in the right place at every time 
when a drug shipment is moving. JIATF-South makes a every 
effective effort trying to move assets around to be at the 
right place based on cued intelligence. For this maritime 
problem, the cued intelligence is critical. You mentioned 
earlier one source of cued intelligence. There are other 
sources that JIATF-South uses.
    Regarding the specific assets, the way I would look at it 
is not based on any decision, budgetary decision at Department 
of Defense, but more based, as indicated earlier, by the fact 
that the P-3 asset themselves were just running out of 
available life expectancy. They had to cut back on P-3 hours. 
That was not really a budget decision, appropriation decision, 
it was the asset that had been used simply was not usable at 
the rate it was being used before for counternarcotics, or for 
any other purpose, for that matter.
    What did occur is, as mentioned also, the maritime patrol 
portion of the entire problem--you have to have the cued 
intelligence, you have to get a ship and aircraft to the place 
where the target is expected to be, and then you also have to 
do an end-game. All three of those have to be done in 
increasingly more effective levels to increase seizures. The 
maritime patrol portion was always a complement of DOD's P-3s, 
also, to some extent, DOD's P-2s, and Customs P-3s.
    And in some ways the Customs P-3s has a better sensor 
suites and in some ways can actually do some missions more 
effectively. Last year, my recollection is that DHS actually 
increased the Customs P-3 hours for counternarcotics. Clearly, 
Coast Guard has put more 130 maritime patrol hours on it, 
meaning the counterdrug mission.
    So even though DOD went down, there is an aggregate of 
maritime patrol capability for counternarcotics in this vast 
transit zone that has been up to the task. Would we like more? 
Surely. But it has been up to the task.
    Mr. Souder. This is one of the things that we have been 
battling over in the Department of Homeland Security Committee, 
what constitutes terrorism hours, what constitute drug hours, 
when the Coast Guard boats are pulled in, is the time steaming 
out into zone and steaming back counted as counterdrug hours or 
not?
    Clearly, last year was better than the year before, but I 
am interested in seeing the numbers that you have that show 
that the net hours coming out of DHS that are specifically 
counterdrug related have increased that substantially to offset 
the P-3. Obviously, we have also had these discussions.
    I remember now Speaker Hastert, when he headed this 
subcommittee, having discussions about what the military was 
going to do to replace the P-3s nearly 10 years ago. This isn't 
something that we just came up and said, oh, this asset is 
declining, we suddenly have a problem. The question is you all 
are in charge of it. What was your proposal to replace the P-3, 
not just to sit and ring your hands and say, well, we don't 
have the P-3? Who was responsible for saying--I mean, these 
assets were declining. Who was coming forth and saying here is 
what we are going to replace them with? As I asked the question 
about the aerostat, we know there are problems with the 
aerostat. The answer to the question of the replacement system 
is, well, maybe someday, we are not sure.
    And when we see an asset declining over time, what it means 
is--and I want to grant this absolutely for the record because 
this absolutely needs to be praised--for a variety of reasons, 
the cooperation is a lot better. There is much less concern, 
when assets are down, as to who gets particular credit for a 
particular thing. There is much more sharing of assets.
    If somebody doesn't have enough hours over here, all of a 
sudden it is not who is going to get there first and we are 
going to run two boats there, it is who has a boat that can run 
there. So partly adversity has helped with it. Second, we have 
become better. We should become better.
    But the fact is that we are told that there is actionable 
drug things that we aren't seizing, and, no, we can't get all 
of them, but our goal should be to try to get as many of them 
as possible when we can see them, and this is a relatively new 
phenomena that has occurred that says now that we can see them 
and we are not getting them, and it should then be up to those 
who are in charge of the antidrug efforts to come to us and say 
this is what we need in order to do this. If, at the end of the 
day, we don't have the appropriation dollars to do it and we 
say we can't fund that because we have these priorities and the 
American people have to make a decision, we are going to let 
this many boats go through without putting the assets to them 
because that money can be used in Head Start, that money can be 
used in other projects, we have to do that.
    But if you aren't telling us precisely what you need to 
interdict the assets, if you don't come to us and say, look, 
here is what we need to try to do the aerostats, here is what 
we need to try to figure out how to seize these different 
boats, here is what we need to replace the P-3s--we are not 
going to have these P-3s.
    Here is another aspect that is specific that we need in the 
drug war, because what will happen is, with all due respect, 
inside DOD, this is the challenge that Secretary Long has and 
that each of you has, that inside DOD, we are the poor little 
sister at the table. And when they are looking at designing a 
new platform in the miliary, counterdrugs are not the primary 
thing that they are looking at. And that comes back to the 
fundamental question of can the military really be in charge of 
this if what you are telling me is your assets that you use are 
depleting, that you can't get inside the budget high enough 
priority to say what is going to replace it. Do we have to have 
an agency that is more focused, where the drugs aren't the 20th 
priority, they are least in the top three?
    On the other hand, you have the most assets. You have 
historically done this. I have tried to encourage you as much 
as possible to take the leadership back, but it isn't enough of 
an answer to say, look, our assets are going down, we don't 
have them. We have known that for a decade. The question is 
what are we doing about it.
    Anybody have any comments on that you would like to 
address?
    Captain Turner. I know a little bit about the P-3 issue 
from Naval aviation. I am exposed to it in some degree. And it 
was a relatively quick phenomenon. When they established it, 
there was a long, very concentrated test and assessment done on 
the aircraft life, and that is where we took our hit. We took 
our hit when the final assessment came out on the aircraft. It 
was a year and a half ago, and they said we have to decrease 
the number of hours on that platform by almost 50 percent a 
month. So that was a massive decrease. And that decision 
happened over only a couple months.
    The Navy has been working toward getting a replacement MPA 
aircraft for some time, as you described, and the P-3s were 
judged to be able to fill that gap even though there was going 
to be some decrease in their numbers, but not until they opened 
up the airplane and did that assessment did they determine that 
this aircraft is going to become dangerous to fly. So it was a 
relatively quick reaction on the DOD's part to cut back that.
    We immediately, of course, went into the, OK, we have to 
replace that particular platform and capability with 
international support, Department of Homeland Security support. 
This is what we do. And that is only one aspect of the 
counterdrug mission down there. There is so much more than just 
the MPA asset that we deal with and what DOD brings to the 
table on this, and we have described a number of things that 
DOD principally brings to the table. We are talking about one 
asset.
    And we realize in naval aviation, where the money had to go 
to, whether it is for F-18 ENFs by bringing up the MPA, that is 
where it went. That is an internal Navy decision and that is 
their prerogative. We are constantly engaged with the services 
to provide the capability that we require, and that is what we 
are going to continue to do.
    Mr. Souder. I appreciate your comments, but I do think it 
is important to point out that as I have had the privilege to 
go with our people in multiple locations, both in the United 
States in interdiction zones and in the transit zones, this 
equipment is old. This is Vietnam War stuff in many cases, 
1960's plane. What you are telling me is we just discovered a 
year and a half ago that a plane built in the early 1960's is 
starting to wear out? That is ridiculous.
    Captain Turner. No, sir.
    Mr. Souder. Or what you are saying is they are wearing out 
faster than you thought----
    Captain Turner. Yes, sir.
    Mr. Souder [continuing]. Because somebody thought they were 
going to have new platforms 5 years ago, so they kept using 
these things at higher and higher intensity, more and more 
hours because we had multiple tasking. So the obsolescence that 
we passed some time ago, when they went in to check, they 
discovered that these things were basically dying, which we 
knew 10 years ago.
    Now, the specific that you are referring to a year and a 
half ago is how much time they precisely had left and how 
dangerous they were to fly, but it doesn't take too long flying 
in Colombia or in the transit zone or along our border in some 
of these planes to realize that many people would not get on 
that plane in the morning necessarily if they saw it at their 
airport.
    What you all have done in the military has extended the 
life of this stuff through incredible people working with these 
planes through coming up with new types of stuff and take risks 
that average Americans wouldn't take. But it isn't a shock that 
all of a sudden you have to cut back the hours of these things. 
They are old. Some of them have been rehabbed and reclaimed to 
try to go into the drug war.
    And we want to get you better and more equipment, but to do 
that there needs to be some specific requests and saying 
forthright, look, we don't have enough stuff here. And trying 
to come up with all kinds of explanations.
    I am not arguing that you don't do a great job with old 
assets that you are stitching together. The problem is, much 
like the Coast Guard, we can't expect the Coast Guard to guard 
the port, be out in the middle of the Caribbean, by the way, 
catch every sailboat that turns over and every fishery, but 
with the same number of boats. We have to face it here, we 
either have to prioritize some of the missions, in which case 
we argue about prioritizing missions, or get them more boats.
    Same thing with you all. If you have multiple missions and 
we need something to do the intelligence for the drug zone, we 
need to get the platforms to do it or we need to figure out the 
agency that is going to be responsible for that, get them the 
platforms, or acknowledge publicly that we can't stop a big 
percentage of this stuff.
    And then the question is--if I can make a last editorial 
comment--we doggone better not, well, cut back local and State 
law enforcement in the budget and get rid of Safe and Drug-Free 
Schools money, because if we aren't going to be able, as Mr. 
Wolfson has eloquently said, to stop all this stuff, we better 
not be wiping out our local guys who are trying to stop it once 
it gets through.
    With that little editorial comment, does anybody want to 
have--I very much appreciate your coming. It is not easy to 
come up, when you are struggling with so many different tasks 
in the budget, and defend and explain everything you are doing. 
Our job in this committee is to make sure the war on drugs and 
the efforts on narcotics do not get ignored as we are tackling 
other types of things.
    As we all know, in the budget process these things go up 
and down, and 1 year it is gangs, another it is missing 
children, and then we are at war and then everything is 
terrorism. But the war on drugs is a constant, and we have to 
stay vigilant with it or it just overwhelms us, and then we 
spend 3 or 4 years trying to catch up.
    Anybody have any closing comments you want to make?
    Ms. Long. On behalf of the panel, Mr. Chairman and your 
staff, I want to compliment you on your excellent efforts in 
this arena. The Department of Defense is committed to our 
counterdrug programs and our counterdrug operations, and I 
think the alternative view of some of the points you just 
raised are because the Department does have so many anti-
smuggling, detection and monitoring, and intelligence, and 
infrastructure, communications--and all those things that we 
all know about--capabilities, that it is my job, quite frankly, 
as Deputy Assistant Secretary, to make sure that I leverage all 
the resources of the Department in an effective way in order to 
further this mission. It is an important mission.
    I am painfully aware that every year that a greater number 
of people in the United States die from drug overuse or drug-
related problems than were killed in the September 11th 
bombings, and you have both my support and the Secretary's 
support in making sure the Department plays its role and that 
we continue giving you the adequate support and giving our 
sister agencies the support that they deserve, they need, and 
they require to perform this function.
    Thank you.
    Mr. Souder. I thank all of you for your efforts, and I am 
sure we will continue to ask questions both formally for this 
hearing, some written questions, but also in the regular give 
and take, and I appreciate your coming today.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
